HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Logistics
Management Institute," (A-03-06-00519)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With Logistics Management Institute," (A-03-06-00519)
January 19, 2007
Complete Text of Report is available in PDF format (93 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit is one of several reviews of procurements by the Program Support Center (PSC) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
As part of HHS’s hurricane relief operations, PSC awarded a contract to Logistics Management Institute (the Institute) to support HHS in planning and executing health care operations and logistics tasks. Our objective was to determine whether PSC complied with FAR and HHSAR requirements during the award process involving the Institute. PSC complied with the requirements.